No. 20IN THE SUPREME COURT OF THE UNITED STATES

REPUBLICAN PARTY OF PENNSYLVANIA, ET AL.,
Petitioner,
v.
KATHY BOOCKVAR, IN HER OFFICIAL CAPACITY AS PENNSYLVANIA SECRETARY OF STATE,

ET AL., and PENNSYLVANIA DEMOCRATIC PARTY,
Respondents.

On A Petition For Writ Of Certiorari To The Supreme Court Of Pennsylvania
MOTION FOR EXPEDITED CONSIDERATION OF THE PETITION FOR A
WRIT OF CERTIORARI AND FOR EXPEDITED MERITS BRIEFING AND
ORAL ARGUMENT IN THE EVENT THAT THE COURT GRANTS THE
PETITION
Petitioner Republican Party of Pennsylvania (RPP) moves, under Supreme
■

Court Rule 21, for expedited consideration of the petition for writ of certiorari, filed
today, to .the Supreme Court of Pennsylvania. Four Justices of this Court already
have agreed that there is ‘“a reasonable probability’ that this Court will grant
certiorari” and ‘“a fair prospect’ that the Court will then reverse the decision below.”
Maryland v. King, 133 S. Ct. 1, 2 (2012) (Roberts, C.J., in chambers) (citations
omitted). Those Justices voted to stay the Pennsylvania Supreme Court’s judgment
extending the General Assembly’s Election Day received-by deadline and mandating
a judicially crafted non-postmarked ballots presumption. See Republican Party of Pa.

1

v. Boockvar, No. 20A54 (Oct. 19, 2020); Scarnati v. Boockvar, No. 20A53 (Oct. 19,
2020). For their part, Respondents acknowledge that the questions presented are “of
overwhelming importance for States and voters across the country” because
numerous courts are addressing “state election-law provisions . . . similar to” those at
issue here. Pa. Dems. Br. 9, No. 20A54; see also Sec’y Br. 2—3, No. 20A54. Indeed,
Respondents have already asked the Court to resolve the questions presented without
further briefing. See Pa. Dems. Br. 9, No. 20A54; Sec’y Br. 2—3, No. 20A54.
Expedited consideration of the petition for a writ of certiorari is warranted
because of the imminence of the general election in which millions of Pennsylvanians
will cast their votes for President, U.S. Representative, and other offices. See Pet. 3—
4. RPP respectfully requests that the Court decide this case on the merits before
Election Day—and the General Assembly’s Election Day received-by deadline—on
November 3, 2020. To that end, RPP proposes that:
•

Respondents be directed to file any response to the petition on or before
Tuesday, October 27, 2020;

•

RPP file a reply brief on or before Wednesday, October 28, 2020; and

•

The Court treat the briefing on the petition as merits briefs and decide the
case without oral argument. Cf. Purcell v. Gonzalez, 549 U.S. 1 (2006).

In the alternative, if the Court believes that merits briefing and oral argument
would aid its resolution of the issues presented, RPP requests that the Court set an
expedited schedule for such briefing and argument.

RPP has today asked the

Pennsylvania Supreme Court to order Respondents Secretary of State Boockvar and
2

the county boards of elections to segregate ballots received after the General
Assembly’s deadline of 8 o’clock P.M. on November 3, 2020 from those received before
the deadline. Should that court decline to act, this Court should enter a similar order
to preserve its jurisdiction to resolve this matter and to enter an appropriate remedy.
See 28 TJ.S.C. § 1651(a).
As the Petition explains, the Court’s review and reversal of the Pennsylvania
Supreme Court’s judgment are warranted.

See Pet. 18-36.

The Pennsylvania

Supreme Court majority acknowledged that there is “no ambiguity regarding the
deadline set by the General Assembly”: to be counted, absentee and mail-in ballots
‘“must be received in the office of the county board of elections no later than eight
o’clock P.M. on the day of the primary or election.’” Pet.App.43a-44a (quoting 25 Pa.
Stat. § 3150.16(c)). Nonetheless, on a 4-3 vote—and well after the eleventh hour—
the majority ordered a three-day extension of the received-by deadline and imposed
a judicially crafted presumption of timeliness for non-postmarked ballots that arrive
after Election Day but before the extended deadline. See Pet.App.132a. Thus, the
majority directed county boards of elections to treat as valid, and to count, ballots the
General Assembly has statutorily mandated are invalid and not to be counted. See
Pet. 1-4.
As the three dissenting justices explained, the decision below is incompatible
with the General Assembly’s “clear legislative intent” to ensure “a timely vote could
be cast before the only meaningful milestone [in the legislative scheme], Election
Day.” Pet.App. 113a.(Donohue, J., concurring and dissenting); Pet.App.l25a-126a.
3

.1

(Saylor, C.J., concurring and dissenting). The majority thus gave insufficient regard
to—and, in fact, usurped—the General Assembly’s plenary authority to “direct” the
“Manner” for appointing electors for President and Vice President, U.S. Const, art.
II, § 1, cl. 2, and broad power to prescribe “[t]he Times, Places, and Manner” for
congressional elections, id. art. I, § 4, cl. 1; Bush v. Palm Beach Cnty. Canvassing Bd.,
531 U.S. 70, 77 (2000) (per curiam); see also Pet. 18-30. The majority’s judicial
extension and non-postmarked ballots presumption also are preempted by a trio of
federal statutes that set a uniform nationwide federal Election Day. See 3 U.S.C. § 1,
2 U.S.C. §§ 1, 7; see also Pet. 31-33. That the majority imposed these changes to the
Commonwealth’s Election Code by judicial fiat at the last minute only underscores
its error. See, e.g., Purcell, 549 U.S. at 4-5.
This Court, however, can review the judgment below and enter an appropriate
remedy only if it does so on an expedited basis. The ordinary briefing schedules
prescribed by Rules 15 and 25 of this Court would not allow the case to be considered
and decided before the results of the general election must be finalized. The Electoral
College “Safe Harbor” deadline for resolving contested elections in any State falls on
December 8, see 3 U.S.C. § 5, and “[t]he electors of President and Vice President of
each State shall meet and give their votes” on December 14, id. § 7. Congress must
count the electoral votes and declare a winner on January 6, 2021, id. § 15, and
Inauguration Day for the President and Vice President is January 20, 2021, only
approximately 90 days from now, see U.S. Const, amend. XX. All of these deadlines

4

would expire before the completion of briefing, argument, and a decision on the merits
under the Court’s default rules. See U.S. Sup. Ct. R. 15, 25.
Once candidates have taken office, it will be impossible to repair election
results tainted by illegally and belatedly cast or mailed ballots.

Thus, without

expedited review, RPP’s appellate rights—and this Court’s power to resolve the
important constitutional and legal questions presented for this election—will be
irrevocably lost. Cf. Chafin v. Chafin, 568 U.S. 165, 178 (2013). In other words,
expedited review is, as a practical matter, the only way to protect this Court’s ability
to conduct a plenary review of the Pennsylvania Supreme Court’s rulings for this
election.1 Such review will in no way prejudice Respondents, who have already asked
this Court to decide the case on the merits based on briefing already submitted. See
Pa. Dems. Br. 9, No. 20A54; Sec’y Br. 2-3, No. 20A54.
For all of these reasons, RPP respectfully requests that the Court grant
expedited review of the petition for certiorari and of the merits of this case. Such
expedited review would allow an orderly and timely resolution of the important
questions presented under the U.S. Constitution and federal law—questions that four
Justices of the Court and Respondents themselves have deemed worthy of the Court’s
attention.

1 This does not mean, however, that if the Court denies this Motion to Expedite
the case becomes moot. The issues presented in this appeal are capable of repetition
yet evading review. See FEC v. Wis. Right to Life, Inc., 551 U.S. 449, 462 (2007).
5

I

Respectfully submitted,

Date: October 23, 2020

/s/ John M. Gore_______
John M. Gore
Counsel of Record
Alex Potapov
JONES DAY
51 Louisiana Avenue, NW
Washington, DC 20001
Phone: (202) 879-3939
jmgore@jonesday.com
Kathleen Gallagher
Russell D. Giancola
PORTER WRIGHT MORRIS
& ARTHUR LLP
6 PPG Place, Third Floor
Pittsburgh, PA 15222
Phone: (412) 235-4500
Counsel for Petitioner

)

6

